C'OCKLE

2311 Douglas Street CA + . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B ut cfs contact @cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-443

UNITED STATES OF AMERICA,
Petitioner,
Vv.
DZHOKHAR A. TSARNAEV,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), 1 certify that the BRIEF OF AMICI CURIAE
EVIDENCE AND SENTENCING LAW PROFESSORS IN SUPPORT OF JUDGMENT BELOW
ON EVIDENCE EXCLUDED AT PENALTY PHASE in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 4861 words, excluding

the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 25th day of August, 2021,
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Hebraska A
f RENEE J. GOSS . deca rtater , Chk

iy Comm. Exp. September 5, 2023
Notary Public

 

Affiant 40898
